No. 20-7160
IN THE
SUPREME COURT OF THE UNITED STATES

EMMETT GARRISON, IV, AKA “LIL EMMETT”,
Petitioner,
Versus
STATE OF LOUISIANA,
Respondent.
Petitioner’s Reply to State of Louisiana’s Response to Petition for a Writ of
Certiorari to the Louisiana Fifth Circuit Court of Appeal
______________________________________________
PETITIONER’S REPLY TO STATE OF LOUISIANA’S OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
______________________________________________

Submitted by:
Meghan Harwell Bitoun
Counsel of Record for Emmett Garrison
Louisiana Appellate Project
P.O. Box 4252
New Orleans, LA 70178
(504) 470-4779

1

TABLE OF CONTENTS

TABLE OF AUTHORITIES ....................................................................................... 3
REPLY FOR PETITIONER ....................................................................................... 4
CONCLUSION .......................................................................................................... 9

2

TABLE OF AUTHORITIES
Cases

Jones v. Mississippi, 141 S.Ct. 1307 (2021) – passim
Miller v. Alabama, 567 U.S. 460, 489 (2012). – passim
Constitutional Provisions
U.S. Const. amend. VII – passim
Secondary Sources
Rekker, Roderik, et al, Moving in and out of Poverty: The Within-Individual
Association between Socioeconomic Status and Juvenile Delinquency, PLoS One,
2015; 10(11): e0136461 – p. 8
Ellis L, McDonald JN (2000) Crime, delinquency, and social status: A
reconsideration. J. Offender Rehabil. 32(3):23–52; and J Quant Criminol 23(1):23–39
– p. 8
Jarjoura GR, Triplett RA, Brinker GP (2002) Growing up poor: Examining the link
between persistent childhood poverty and delinquency. J. Quant Criminol 18(2):159–
187 – p. 8, 9

3

REPLY FOR PETITIONER
In the wake of this Court’s decision in Jones v. Mississippi, 141 S.Ct. 1307
(2021), the question presented in Emmett Garrison’s petition is more critical than
ever. The State of Louisiana, in its Opposition to Mr. Garrison’s Petition, hit the nail
on the head of the issue here: this Court’s role is in setting the “floor” of the
Constitution’s Eighth Amendment protections in sentencing juveniles to life without
parole. The State noted, “as this Court pointed out in Jones, a state is always free to
offer ‘more’ protections and sentencing limits for juveniles; this Court sets the ‘floor’
of protections, not the ‘ceiling.’” Opposition of the State of Louisiana, p. 8. In this case,
the sentencing court imposed a standard which falls well below the “floor” established
by this Court in Miller v. Alabama when it held Mr. Garrison’s evidence to a burden
of proving that he deserved life with the possibility of parole.
Because the State did not concede that the trial court held Mr. Garrison to a
burden of proving that he deserved life with parole, Mr. Garrison now re-submits the
Appendix in this case to include an additional transcript, containing the first part of
the Miller hearing in a supplemental appendix to this Court. This, together with the
ruling of the sentencing court in Appendix B, establishes three crucial assertions by
Mr. Garrison: 1.) that the defense put forth expert witness testimony concluding that
Mr. Garrison could not be deemed the worst of the worst, 2.) the State put forth no
evidence beyond the trial court record, and 3.) the trial court’s assessment of the
evidence under these circumstances shows that it held Mr. Garrison to a burden of
proving that he deserved the lesser punishment of life with parole.

4

And while the State did not concede that the trial court held Mr. Garrison to
such a burden, the State did not push back with any countervailing argument. Mr.
Garrison maintains that the transcript of the hearing and the sentencing court’s
language establishes that the court began its analysis from a starting point of life
without parole, and it required Mr. Garrison to persuade the court that a lesser
sentence was appropriate. From the position of the sentencing court, Mr. Garrison’s
life-without-parole sentence was going to be automatic, unless he could prove that he
deserved otherwise. This analysis is incorrect under Miller, and juvenile sentencing
courts in the United States would benefit from this Court’s clarification that such an
approach undermines the Eighth Amendment’s protections.
The question presented by this case asks this Court to set the floor of this
Eighth Amendment protection—that a juvenile life-without-parole sentence not be
automatic—by finding that a sentencing court does not have the discretion to impose
a presumption in favor of life without parole at a juvenile sentencing hearing. A
sentencing court which imposes a presumption in favor of life without parole
necessarily violates Miller’s holding that the Eighth Amendment prohibits the
automatic imposition of life without parole. Miller v. Alabama, 567 U.S. 460, 489
(2012).
The State of Louisiana argues that Petitioner’s argument is foreclosed because
of this Court’s holding in Jones that Miller requires “‘only that a sentencer follow a
certain process—considering an offender’s youth and attendant characteristics—
before imposing’ a life-without-parole sentence. . .” Jones, 141 S.Ct. at 1314-1315,

5

citing Miller, 567 U.S. at 483. Opposition of the State of Louisiana, p. 7. The State
says that because this process was followed in Mr. Garrison’s sentencing, the matter
is closed. This process was followed to the extent that Mr. Garrison received a
sentencing hearing, but to the extent that the sentencing court is required to consider
Mr. Garrison’s youth and its attendant characteristics, this process was completely
inverted. If a sentencing court has the discretion to impose a presumption in favor of
life without parole means it could “consider” the offender’s youth in ways that either
ignore or run counter to the body of law and science grounding Miller’s holding. And
that is exactly what happened in this case. Mr. Garrison’s Original Petition offers a
detailed account of the sentencing court’s evaluation of Mr. Garrison’s youth as being
aggravating in nature—in other words, the trial court considered the circumstances
of Mr. Garrison’s youth as supporting a sentence of life without parole. See Original
Petition pp. 16-18. This reasoning cannot be squared with this Court’s
pronouncements in Miller as to how the Eighth Amendment protects juvenile
offenders facing life without parole, and it points to a gap in the law in the wake of

Jones.
The Jones decision discounts speculation that there could be any daylight
between a court’s discretion to consider youth and its actual consideration of youth.

Jones, 141 S.Ct. at 1319. But this kind of pro forma, meaningless “consideration”
happens regularly in trial courts, and as the transcript in this case shows, not only
can a court’s “consideration” of youth be meaningless, the circumstances of his youth
can be turned into aggravating factors against him. Here, where the court dismissed

6

Mr. Garrison’s juvenile records, which contained evidence of the neglect and abuse of
his childhood, it could be said that the trial court “considered” Mr. Garrison’s youth.
Indeed, the court could—and did—consider factors surrounding Mr. Garrison’s youth
as reasons supporting the harshest possible penalty. See Original Petition, pp. 17-18.
The establishment of a presumption in favor of life with parole—or a pronouncement
that a sentencer may not impose a presumption in favor of life without parole—would
protect the Eighth Amendment rights of Mr. Garrison and other juvenile offenders
across the country.
Mr. Garrison’s case suggests that there remains a gap which calls for this
Court to establish the “floor” of a juvenile’s Eighth Amendment rights at sentencing.
This Court in Jones maintains that the Miller decision’s admonition that it is the
“rare” juvenile who should be sentenced to life without parole was a prediction based
on mathematical statistics. But the Miller decision focuses in great detail upon the
differences in general between juvenile and adult mental development, and how what
we know about each speaks to an offender’s culpability. The Miller decision did not
establish that life without parole or life with parole are simply two equally valid
sentences for juvenile homicide offenders. A fair reading of Miller shows that the
mitigating factors of youth fundamentally shift the standard for evaluating a juvenile
offender’s culpability. Miller at 471-480. Jones’s holding that Miller requires only a
certain process—considering an offender’s youth and attendant characteristics—
cannot be read to mean that Miller mandates that a sentencing court merely needs
to hold a sentencing hearing. Such a reading allows for the sentencer to “consider”

7

youth and its attendant circumstances as aggravating forces rather than mitigating
ones—as the sentencing court did here—reversing the substance of the Eighth
Amendment’s protection completely. Mr. Garrison respectfully asserts that granting
certiorari in this case will close this gap and preserve the substance of the Eighth
Amendment’s protection for juvenile offenders facing life without parole sentences.
Finally, the State of Louisiana goes into some detail as to Mr. Garrison’s other
crimes, yet it neglects to mention that Mr. Garrison was sentenced to those crimes,
consecutively, adding up to a term of imprisonment of 197 years, exceeding his
expected lifespan several times over. Supp. R. 11. He was found guilty of and
punished for those crimes, and the question here is whether the sentence of life
without parole was an appropriate sentence for his participation as a principal in a
second degree murder. In other words: whether his culpability in that crime is
sufficient to justify the harshest punishment available. Without some further
guidance, the sentencer is free to lump the crimes together as it (and the State) did
here, sentencing him multiple times over, rather than evaluate his culpability—by
considering his youth as well as the fact that he was not the shooter—in sentencing
him on the murder.
Juvenile offenders in the justice system are the most under-resourced class of
persons to face the state’s power to convict and punish them. 1 They come, as Mr.

See Rekker, Roderik, et al, Moving in and out of Poverty: The Within-Individual
Association between Socioeconomic Status and Juvenile Delinquency, PLoS One, 2015;
10(11): e0136461 (“Socioeconomic status is one of the most well-documented correlates of
juvenile delinquency.”), citing Bjerk D (2007) Measuring the relationship between youth
criminal participation and household economic resources; Ellis L, McDonald JN
1

(2000) Crime, delinquency, and social status: A reconsideration. J Offender Rehabil 32(3):23–
8

Garrison did, from families and communities which are entrenched in violence,
poverty, and addiction.2 All they have are their constitutional rights, and the floor of
those rights are established by this Court. Mr. Garrison respectfully requests that
this Court grant his petition.
In the alternative, Mr. Garrison requests that this Court summarily reverse
his sentence of life without parole on grounds that this sentence violates the Eighth
Amendment under an as-applied analysis because the evidence presented at the trial
court does not support the harshest possible penalty in this case.
CONCLUSION
Mr. Garrison respectfully requests that the petition for a writ of certiorari be
granted.
Respectfully Submitted:
/s/ Meghan Harwell Bitoun
Meghan Harwell Bitoun
Counsel of Record
Louisiana Appellate Project
P.O. Box 4252
New Orleans, LA 70178
(504) 470-4779
meghanbitoun@gmail.com
JUNE 2021

52; and J Quant Criminol 23(1):23–39, and Jarjoura GR, Triplett RA, Brinker GP
(2002) Growing up poor: Examining the link between persistent childhood poverty and
delinquency. J Quant Criminol 18(2):159–187.

See Jarjoura GR, Triplett RA, Brinker GP (2002) Growing up poor: Examining the link
between persistent childhood poverty and delinquency, J Quant Criminol 18(2):159–187.
2

9

